NO.

IN THE SUPREME COURT OF THE UNITED STATES

BOBBY JOHN KOBITO,
Petitioner,
vs.

UNITED STATES OF AMERICA,

Respondent.

 

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
—= Fl ENN ORMA PAUPERIS

Pursuant to Title 18, United States Code § 3006A(d)(7) and
Rule 39 of this Court, Petitioner, Bobby John Kobito, asks leave
to file the attached Petition for Writ of Certiorari to the United
States Court of Appeals for the Fourth Circuit, without prepayment

of fees or costs and to proceed in forma pauperis.
Petitioner was represented by counsel appointed pursuant to
Title 18, United States code § 3006(a) on appeal to the Fourth
Circuit Court of Appeals. a copy of the order of appointment is
appended.

Respectfully submitted, September 14, 2021.

LOUIS C. ALLEN III
Federal Public Defender

LISA S. COSTN

Assistant Federal Public Defender
N.C. State Bar No. 14308

251 N. Main st., Ste 849

Winston Salem, NC 27101

(336) 631-5172

Attorney for Petitioner
